1a

IN THE
INDIANA SUPREME COURT
Supreme Court Case No. 19S-CR-336
State of Indiana,
Appellant (Plaintiff)
–v–
Ernesto Ruiz,
Appellee (Defendant)
Argued: February 21, 2019 │Decided: June 3, 2019
Appeal from the Jackson Circuit Court,
No. 36C01-1510-F4-25
On Petition to Transfer from the Indiana Circuit
Court of Appeals
No. 36A01-1714-CR-2999

2a
Opinion by Chief Justice Rush
Justices David and Goff concur.
Justice Massa Concurs in result.
Justice Slaughter dissents, believing transfer should
be denied.
Rush, Chief Justice.
If police interrogate someone in custody without
providing Miranda warnings, the person’s interrogated statements are generally inadmissible as evidence against that individual in a criminal trial.
Here, two police officers interrogated Ernesto Ruiz
in a secured area at a police station, without providing him Miranda warnings. When the State tried to
use statements Ruiz made during the interrogation as
evidence against him in a criminal trial, he moved to
suppress them as inadmissible. The trial court
granted the motion.
The State appealed, arguing suppression was contrary to law because Ruiz—although interrogated—
was not in custody. Finding substantial, probative evidence that he was in custody, we affirm the trial
court’s decision.
Facts and Procedural History
In a small, windowless room in a secured area of
the Seymour Police Department, two police officers
tag-teamed an interrogation of Ernesto Ruiz, who had
been accused of a crime. Neither officer gave him Miranda warnings, and multiple times the officers told

3a
Ruiz that he was to “sit tight” in the interrogation
room.
Later, the State sought to use a video of the interrogation as evidence against Ruiz in a criminal trial.
Ruiz moved to suppress it, arguing his statements in
the video were inadmissible because they were made
during custodial interrogation in the absence of Miranda warnings.
The trial court heard evidence on the matter: testimony from the two officers who interrogated Ruiz,
and the audio–video recording of the interrogation.
The court also heard arguments, which the court considered overnight along with relevant caselaw. The
next day, the court heard more testimony and argument, and then granted Ruiz’s motion to suppress.
In granting the motion, the court recognized—
rightly—that whether Ruiz was in custody turns on
objective circumstances.1 It then determined that the

1 The trial court also rightly recognized that statements
made in coercive settings implicate Article 1 of the Indiana Constitution. Ruiz made a similar acknowledgment in his motion to
suppress, alleging that his rights under the Indiana Constitution
were violated alongside his federal constitutional rights. But
Ruiz did not advance any state constitutional arguments separate from those based on the Federal Constitution. While the
rights protections of the state and federal constitutions often run
parallel, they do not always mirror one another exactly, and they
derive from independent sources of authority. For these reasons,
claims brought under each charter warrant separate arguments.
See, e.g., Litchfield v. State, 824 N.E.2d 356, 359–64 (Ind. 2005).
See generally Jeffrey S. Sutton, 51 Imperfect Solutions: States

4a
environment was “a police setting” in which multiple
officers questioned Ruiz in an accusatory and focused
way in a room behind several closed doors. The court
observed that although Ruiz went to the police station
on his own, he “had to be buzzed into the area or taken
into the area of a secure room.” And although the first
officer told Ruiz he could walk out of the interrogation-room door, the court found that statement, in this
specific context, would not make a reasonable person
feel free to leave. The court emphasized that after the
second officer later entered the room, shut the door,
and took on the role of interrogator, Ruiz was not told
that he could leave or that the first officer’s initial
statement remained valid.
The State claimed that it could not proceed without the evidence that had been suppressed. For this
reason, and since a jury had already been empaneled,
the court declared a mistrial.
The State appealed the suppression decision, see
Ind. Code § 35-38-4-2(5) (2018), and a panel of the
Court of Appeals reversed, concluding the interrogation was not custodial, State v. Ruiz, No. 36A01-1712CR-2999, 2018 WL 3543561, at *5 (Ind. Ct. App. July
24, 2018).

and the Making of American Constitutional Law (2018). Since
Ruiz did not develop any arguments separate from those resting
on the Federal Constitution, he waived any right to suppression
on independent state-law grounds. Cf. State v. Timbs, 84 N.E.3d
1179, 1184 (Ind. 2017), vacated & remanded by 139 S. Ct. 682
(2019).

5a
Ruiz petitioned for transfer, which we now grant,
vacating the Court of Appeals decision. Ind. Appellate
Rule 58(A).
Standard of Review
The State brings this appeal under Indiana Code
35-38-4-2(5), which authorizes the State to appeal an
order granting a motion to suppress if the order ultimately prevents further prosecution of at least one
charged count. This kind of appeal, we have recognized, is one from a negative judgment. See, e.g., State
v. Brown, 70 N.E.3d 331, 334–35 (Ind. 2017); State v.
Keck, 4 N.E.3d 1180, 1183 (Ind. 2014); State v. Washington, 898 N.E.2d 1200, 1202–03 (Ind. 2008); see also
State v. Estep, 753 N.E.2d 22, 24–25, 24 n.5 (Ind. Ct.
App. 2001); State v. Ashley, 661 N.E.2d 1208, 1211
(Ind. Ct. App. 1995). A negative judgment is the denial of relief to a party on a claim for which that party
had the burden of proof. See Ben-Yisrayl v. State, 738
N.E.2d 253, 258 (Ind. 2000).
It is true that Ruiz filed the motion to suppress his
statements. But no matter Ruiz’s burden to support
his challenge to the statements’ admission,2 the trial

2 See United States v. Artis, No. 5:10-cr-15-01, 2010 WL
3767723, at *4 & n.2 (D. Vt. Sept. 16, 2010) (unreported table
decision) (observing lack of clarity in and disagreement over the
burden to establish whether the defendant was subjected to custodial interrogation). Compare United States v. Jorgensen, 871
F.2d 725, 729 (8th Cir. 1989) (requiring defendant to show custodial interrogation), United States v. Lawrence, Nos. 88-2056, 2086, -2087, -2109, -2135, 1989 WL 153161, at *5–6 (6th Cir.

6a
court, in granting his motion, necessarily determined
that the State failed to carry its countervailing burden to prove that the statements were admissible. See
Colorado v. Connelly, 479 U.S. 157, 167–69 (1986);
Lego v. Twomey, 404 U.S. 477, 488–89 (1972). Specifically, since Ruiz brings his challenge under the Federal Constitution, the State had to show by a preponderance of the evidence that Ruiz voluntarily waived
his Miranda-protected rights before he made the
statements. See United States v. Charles, 738 F.2d
686, 696 (5th Cir. 1984), abrogated on other grounds
by United States v. Bengivenga, 845 F.2d 593, 596–97
(5th Cir. 1988) (en banc); United States v. Miller, 382
F. Supp. 2d 350, 362 (N.D.N.Y. 2005); Smith v. State,
689 N.E.2d 1238, 1246 & n.11 (Ind. 1997). The State
Dec. 18, 1989) (unpublished table decision) (requiring defendant
to show by a preponderance of the evidence that he was subjected
to custodial interrogation), United States v. Davis, 792 F.2d
1299, 1309 (5th Cir. 1986) (requiring defendant to prove “that he
was under arrest or in custody”), and United States v. Peck, 17
F. Supp. 3d 1345, 1354 (N.D. Ga. 2014) (collecting cases), with
United States v. Dudley, No. 18-cr-286-WJM, 2019 WL 1403115,
at *2 (D. Colo. Mar. 28, 2019) (requiring defendant to present
“evidence or allegations sufficient to support a motion to suppress”), United States v. Miller, 382 F. Supp. 2d 350, 361–62
(N.D.N.Y. 2005) (requiring defendant to allege custodial interrogation in the absence of Miranda warnings), and United States
v. Gilmer, 793 F. Supp. 1545, 1555 (D. Colo. 1992) (requiring defendant to point to some evidence that his statements were made
in violation of his constitutional rights). See generally United
States v. Charles, 738 F.2d 686, 692 (5th Cir. 1984), abrogated
on other grounds by United States v. Bengivenga, 845 F.2d 593,
596–97 (5th Cir. 1988) (en banc); United States v. Crocker, 510
F.2d 1129, 1135 (10th Cir. 1975), overruled on other grounds by
United States v. Bustillos-Munoz, 235 F.3d 505, 516 (10th Cir.
2000).

7a
also bore the ultimate burden at trial to prove guilt
beyond a reasonable doubt. See Taylor v. State, 587
N.E.2d 1293, 1301 (Ind. 1992).
So, since the suppression order rested on the
State’s failure to carry its burden to prove the statements’ admissibility, and that decision precludes the
State from further prosecuting a criminal charge,
which the State had the burden to prove, the State
appeals from a negative judgment. Accordingly, the
State must show that the trial court’s decision was
contrary to law—meaning that the evidence was without conflict and all reasonable inferences led to a conclusion opposite that of the trial court. See Brown, 70
N.E.3d at 335; State v. McCaa, 963 N.E.2d 24, 29 (Ind.
Ct. App. 2012), trans. denied. The State cannot make
this showing if there is substantial, probative evidence supporting the suppression ruling. See Brown,
70 N.E.3d at 335.
Here, the trial court’s suppression decision was
proper if Ruiz was under custodial interrogation,
which triggers Miranda. Because the State admits
that Ruiz was under interrogation, we focus our review on the trial court’s determination that Ruiz was
in custody.
The custody inquiry is a mixed question of fact and
law: the circumstances surrounding Ruiz’s interrogation are matters of fact, and whether those facts add
up to Miranda custody is a question of law. See
Thompson v. Keohane, 516 U.S. 99, 112–13 (1995). We
defer to the trial court’s factual findings, without re-

8a
weighing the evidence; and we consider conflicting evidence most favorably to the suppression ruling. State
v. Quirk, 842 N.E.2d 334, 340 (Ind. 2006). But we review de novo the legal question of whether the facts
amounted to custody. Brown, 70 N.E.3d at 335.
Discussion and Decision
Under Miranda v. Arizona, if Ruiz was under “custodial interrogation,” the police were required to give
him certain warnings about his rights, and the absence of those warnings precludes the use of his statements to prove guilt. 384 U.S. 436, 444 (1966).
The State acknowledges that Ruiz was under police interrogation but contends that he was not in custody. Custody under Miranda occurs when two criteria are met. First, the person’s freedom of movement
is curtailed to “the degree associated with a formal arrest.” Maryland v. Shatzer, 559 U.S. 98, 112 (2010)
(quoting New York v. Quarles, 467 U.S. 649, 655
(1984)). And second, the person undergoes “the same
inherently coercive pressures as the type of station
house questioning at issue in Miranda.” Howes v.
Fields, 565 U.S. 499, 509 (2012).
We hold that the State did not carry its burden
here to show that the trial court’s ruling was contrary
to law. The record includes substantial, probative evidence of circumstances that, taken altogether, met
both criteria of Miranda custody. We’ll address each
in turn.

9a
I.

The totality of objective circumstances surrounding the interrogation would make a
reasonable person feel not free to end the
questioning and leave.

Under Miranda, freedom of movement is curtailed
when a reasonable person would feel not free to terminate the interrogation and leave. Howes, 565 U.S.
at 509. This freedom-of-movement inquiry requires a
court to examine the totality of objective circumstances surrounding the interrogation—such as the
location, duration, and character of the questioning;
statements made during the questioning; the number
of law- enforcement officers present; the extent of police control over the environment; the degree of physical restraint; and how the interview begins and ends.
See id.; Oregon v. Mathiason, 429 U.S. 492, 493 (1977)
(per curiam); United States v. Infante, 701 F.3d 386,
396 (1st Cir. 2012); Sprosty v. Buchler, 79 F.3d 635,
641 (7th Cir. 1996).
Here, the State argues that Ruiz’s freedom of
movement was not curtailed and thus he was not in
custody. The State points to certain evidence in support: Ruiz provided his own transportation to the police station; the first interrogating officer told him,
“you don’t have to talk to me” and “you can get up and
walk out that door at any time”; Ruiz sat near the unlocked interview-room door and had not been arrested; the interrogation lasted less than an hour; and
Ruiz left unhindered after it was over.

10a
This evidence does indeed point toward no custody. But substantial, probative evidence in the record points in the opposite direction and supports the
trial court’s suppression ruling.
To start, the time and place of the interrogation
were directed by Detective Greg O’Brien, who showed
up at Ruiz’s home, informed Ruiz of the allegations
against him, explained that he “needed to interview”
Ruiz, and “asked him to come up to the police station.”
Importantly, Detective O’Brien did not inform Ruiz
that any other time or place would suffice for the interview. Cf. Mathiason, 429 U.S. at 493 (defendant returned officer’s phone calls to set up a meeting, and
officer asked defendant where it would be convenient
to meet).
Ruiz came to the police station shortly after getting dressed. Detective O’Brien then led Ruiz through
various sections of the station house: from the lobby
through a door that required a key fob to enter; into a
secured area containing the police squad room; “up
the elevator and the stairs”; through a second keyed
door that was propped open; and into a small interview room with no windows and a single door, which
the officers closed for the interrogation. Although he
was not handcuffed or locked inside the interrogation
room, Ruiz was physically and visually cabined to the
small compartment with officers positioned near the
single, shut door.
Inside the interrogation room, Ruiz was at first
alone with Detective O’Brien, who began the questioning. But after about thirteen minutes, Detective

11a
Troy Munson entered, closed the door, and became
the primary interrogator. At this time, and through
the end of the interrogation, the police outnumbered
Ruiz in the room two-to-one.
When Detective O’Brien started to question Ruiz,
he told Ruiz—a single time—that he could walk out
“that door.” But the trial court did not err in concluding that this statement was not enough to make a reasonable person feel free to leave, for three reasons.
First, the officers told Ruiz to “sit tight” multiple
times, belying any prior indication that Ruiz was free
to go.
Second, the circuitous path by which Detective
O’Brien took Ruiz into the interrogation room drew a
labyrinthine exit route with many obstructions to
egress. One of the doors Detective O’Brien led Ruiz
through required a key fob when heading toward the
interrogation room. And nobody told Ruiz that it was
unlocked going the opposite direction.
Finally, and most importantly, the police significantly undercut any initial message of freedom when
they dramatically changed the interrogation atmosphere. Shortly after Detective O’Brien began the interview, a second officer—whom Ruiz had not yet
met—entered the interview room; shut the door; and
took over as the main, and more aggressive, interrogator. In this way, the police completely recast the interrogation, subverting the force and applicability of

12a
Detective O’Brien’s earlier walk-out-that-door statement. And at no point did either officer say anything
to preserve that statement’s validity.
Other statements the officers said or omitted,
along with the character of their questioning, point
toward curtailed freedom of movement. Detective
O’Brien did not tell Ruiz that he didn’t have to respond to other detectives who may question him. Nor
did the detectives tell Ruiz that he wasn’t under arrest; that he could end the interrogation at any time;
or that he was free to leave once Detective Munson
suddenly injected himself into the interrogation and
began aggressive questioning. Cf. Luna v. State, 788
N.E.2d 832, 833 (Ind. 2003) (affirming suppression
decision where defendant was told multiple times
that he did not have to talk to the police, that he was
not under arrest, and that he was free to leave at any
time).
The officers did, however, repeatedly tell Ruiz to
explain to them what happened, coaxing him to “[t]ell
us now so that we know that you’re being honest with
us and . . . not lying.” The officers were explicit that
they believed Ruiz had engaged in the accused conduct. And their questions were accusatory—not exploratory, like ones to identify suspects in the early
stages of an investigation. Detective Munson emphasized this with deception—saying that the person who
made the accusations had passed a lie-detector test.
The questioning was also prolonged, lasting almost an hour. Although the length of an interview,

13a
alone, does not determine whether a person is in custody, the questioning here was sustained and relatively drawn out, especially compared to roadside
traffic-stop questioning. See Berkemer v. McCarty,
468 U.S. 420, 437–38 (1984). And the officers continued the interrogation past the time they knew Ruiz
was supposed to pick up his daughter, telling him to
“sit tight” until they were satisfied. Indeed, the interrogation did not end until after the officers had extracted incriminating remarks.
Altogether, the circumstances surrounding the interrogation add up to a situation in which a reasonable person would not feel free to end the interrogation
and leave. So, the record supports the conclusion that
the curtailment-of-movement criterion was met.
As custody turns on the totality of the circumstances, the conditions bearing on the curtailment-ofmovement inquiry also factor into the second custody
inquiry: whether the person was subjected to coercive
pressures that necessitate Miranda safeguards.
II. The station-house interrogation included the
coercive pressures that drove Miranda.
The second custody criterion asks whether the circumstances exert the coercive pressures that drove
Miranda. Shatzer, 559 U.S. at 112. When the case involves “the paradigm example of interrogating a suspect at a police station,” the answer to this question is
generally “obvious, in the absence of unusual facts.”
United States v. Ellison, 632 F.3d 727, 729 (1st Cir.
2010); see Berkemer, 468 U.S. at 439–40. The answer

14a
is less obvious for situations outside the classic Miranda station-house paradigm—such as a traffic or
Terry stop; or questioning individuals in their usual
environment, such as inmates in prison. Ellison, 632
F.3d at 729; see Shatzer, 559 U.S. at 112; Berkemer,
468 U.S. at 439–40.
The State devotes little attention to this specific
custody inquiry. But it does argue that Ruiz “was
never coerced to cooperate in exchange for freedom.”
We disagree, as the record includes substantial, probative evidence to the contrary. And overall, the station-house questioning here both resembles the Miranda paradigm and exhibits the coercive pressures
that Miranda targeted.
The interrogation here was not brief roadside
questioning, see Berkemer, 468 U.S. at 439, or interrogation in the “low atmospheric pressure” of a suspect’s typical surroundings, Ellison, 632 F.3d at 730.
Rather, it took place at the station house in an isolated room—removed from Ruiz’s friends, family, and
familiar environment, and with multiple officers employing various interrogation tactics for almost an
hour, trying to convince their suspect to incriminate
himself.
The officers also applied multiple layers of subtly
coercive forces that, together and in the absence of Miranda’s safeguards, would impair their suspect’s free
exercise of the privilege against self-incrimination.

15a
First, after the interrogation began, the officers
kept Ruiz “off balance” in the already unfamiliar environment. See Miranda, 384 U.S. at 455. Detective
Munson (whom Ruiz had not yet met) entered the
room and assumed the role of main interrogator, with
a more aggressive style than that of Detective
O’Brien.
Detective Munson then used subterfuge, lying to
Ruiz about the accuser having taken a lie-detector
test. See id. at 448–57 (describing pressures that create coercion, including use of deceptive stratagems).
He also counseled Ruiz that the alleged conduct was
“not a big deal” but that Ruiz would “look bad” if he
wasn’t forthcoming about it.
And the officers intimated that Ruiz’s fate was in
their hands. They suggested that if Ruiz didn’t talk
right then about what he had done, they would make
things worse for him in the future—because they
would worry that he wasn’t honest and that he had
done “something more” than the alleged wrongdoing.
See Illinois v. Perkins, 496 U.S. 292, 297 (1990)
(“Questioning by captors, who appear to control the
suspect’s fate, may create mutually reinforcing pressures that . . . will weaken the suspect’s will . . . .”).
Other pressures piled on. The officers said that
they “knew” the allegations were true; they engaged
in prolonged, persistent, and accusatory questioning
that focused on encouraging Ruiz to admit to the officer’s description of the wrongdoing; and they instructed Ruiz to stay put in the interrogation room
while the time to pick up his daughter passed.

16a
These types of coercive pressures, applied in a station-house interrogation, are precisely what induced
Miranda’s warning requirements. So, the second custody criterion, like the first, was met.
It is true that a person is not in custody simply because he is questioned at a police station, or because
he is an identified suspect, or because he is in a coercive environment. See Mathiason, 429 U.S. at 495.
And here, certain elements, taken in isolation, may
suggest an inference of no custody. But custody depends on the totality of the circumstances surrounding the interrogation. In this case, the totality of the
circumstances, supported by substantial, probative
evidence in the record, amount to Miranda custody.
So, the State failed to show that the trial court’s suppression ruling was contrary to law.
Conclusion
The Fifth Amendment secures a suspect’s right
against self- incrimination. And to protect this right
from the inherently compelling pressures of custodial
interrogation, Miranda requires police to provide certain safeguards. Here, the police did not provide those
safeguards to Ruiz before interrogating him at the
station house.
Because the totality of objective circumstances evidenced on this record supports the trial court’s conclusion that the interrogation was custodial, we affirm the suppression of Ruiz’s statements.

17a
David and Goff, JJ., concur.
Massa, J., concurs in result.
Slaughter, J., dissents, believing transfer should be
denied.
ATTORNEYS FOR APPELLANT
Curtis T. Hill, Jr.
Attorney General of Indiana
Henry A. Flores, Jr.
Laura R. Anderson
Tyler G. Banks
Deputy Attorneys General
Indianapolis, Indiana
ATTORNEYS FOR APPELLEE
Andrew J. Baldwin
Mark E. Kamish
Baldwin Kyle & Kamish, P.C.
Franklin, Indiana

18a
MEMORANDUM DECISION
Pursuant to Ind. Appellate
Rule 65(D), this Memorandum
Decision shall not be regarded
as precedent or cited before
any court except for the purpose of establishing the defense of res judicata, collateral
estoppel, or the law of the
case.

ATTORNEYS FOR
APPELLANT

ATTORNEYS FOR
APPELLEE

Curtis T. Hill, Jr.
Attorney General of
Indiana

Andrew J. Baldwin
Franklin, Indiana

Henry A. Flores, Jr.
Deputy Attorney
General
Indianapolis,
Indiana

Michael J. Kyle
Franklin, Indiana

IN THE
COURT OF APPEALS OF INDIANA
State of Indiana,

July 24, 2018

19a
Appellant-Plaintiff,
v.
Ernesto B. Ruiz,
Appellee-Defendant.

Court of Appeals Case
No. 36A01-1712-CR2999
Appeal from the Jackson Circuit Court
The Honorable Richard
W. Poynter, Judge
Trial Court Cause No.
36C01-1510-F4-25

Altice, Judge
Case Summary
[1]

The State appeals after the trial court granted
Ernesto Ruiz’s motion to suppress evidence supporting his charge of Level 4 felony child molesting. The sole issue the State raises is whether the
trial court erred in granting the motion to suppress.

[2]

We reverse and remand for further proceedings.
Facts & Procedural History

[3]

Ruiz was not born in the United States. At the
time this case commenced, he had been in the
United States for approximately sixteen years,
was married, and had a daughter, M.R.

[4]

According to the probable cause affidavit, on
Thursday, October 1, 2015, M.R.’s nine-year-old

20a
friend M.L. spent the night at M.R.’s house after
the two attended a local festival. M.R. fell asleep
on the couch in the living room, and M.L. went to
sleep in M.R.’s bedroom.
[5]

Ruiz returned home from work at around 5:30
a.m. on Friday morning. He entered the bedroom
where M.L. was sleeping and asked M.L. for a
hug. M.L. obliged.

[6]

Approximately twenty minutes later, M.L., unable to return to sleep, went to the living room to
see if M.R. was awake. M.L. then walked into the
kitchen. Soon after, Ruiz entered the kitchen and
again hugged M.L. This time, however, Ruiz took
hold of M.L.’s hand and placed it inside of his
shorts onto the bare skin of his buttocks. M.L.
attempted to pull away but Ruiz told her, “No,
[n]o, [i]t’s fine.” Appellant’s Appendix Vol. 2 at
18. He then placed her hand back on his buttocks. M.L. pulled her hand into the shirt sleeve
of her pajamas, but Ruiz grabbed her hand and
moved it in a circular motion on his buttocks
while making an “aaahhh” noise. Id. Ruiz then
placed his hands on M.L.’s buttocks, over her
clothes, squeezed, and said, “Yeah.” Id. M.R.
awoke, and Ruiz left the kitchen and went to bed.
M.L. told M.R. about the incident, but M.R. told
her not to tell anyone. M.L. eventually told one
of her teachers about the incident.

[7]

On October 7, 2015, Detective Sergeant Greg
O’Brien of the Seymour Police Department went

21a
to Ruiz’s home, advised him of the child molesting allegations, told Ruiz that he “needed to interview him” at the police station, and then left.
Transcript Vol. 1 at 202. Ruiz travelled to the police station on his own and entered the station’s
unlocked, exterior door that led to a lobby. Detective O’Brien met Ruiz in the lobby and escorted
him through a secure door that led to the administration area of the station. Individuals entering
this door had to be “buzzed in”; however, there
was no impediment to exiting this door. Id. at
212. The detective led Ruiz upstairs to an interview room that had one door and no windows.
Ruiz was seated in the room near the door, and
the door was closed.
[8]

The interview began with Detective O’Brien advising Ruiz as follows: “All right. And do you understand that you don’t have to talk to me? Do
you understand that? You don’t have to talk to
me. . . . And you understand that you can get up
and walk out that door at any time.” Id. at 215.
Ruiz acknowledged that he understood. When
asked, Ruiz told the detective that he spoke
Spanish and English and that he “[p]retty much”
was fluent in English. Id. Ruiz was not provided
Miranda warnings.

[9]

Detective O’Brien asked Ruiz general questions
about his work, his wife, and his daughter. He
then asked Ruiz specific questions about what he
was doing on Thursday, October 1, and what
transpired with M.L. on the morning of Friday,

22a
October 2. Ruiz initially denied that he hugged
M.L.
[10] Approximately thirteen minutes into the interview with Detective O’Brien, Detective Sergeant
Troy Munson entered the interview room and introduced himself. He was wearing plain clothes
and did not have his firearm. O’Brien and Munson had prearranged that Munson would join the
interview. O’Brien continued to question Ruiz,
and Ruiz eventually told the detectives that
while he was in the kitchen, M.L. “hugged [him],
maybe, yeah.” Id. at 231.
[11] Detective Munson then began to question Ruiz.
He did not repeat Detective O’Brien’s statements
that Ruiz did not have to talk to him or that Ruiz
was free to leave the interview room at any time.
Detective Munson told Ruiz (falsely), “Just tell
us [what happened], but don’t lie to us because
we’ve already talked to this girl, [sic] she’s already had a lie detector done.1 Okay? She passed
the lie detector test, so we know she’s not lying
to us . . . .” Id. at 242. Ruiz reiterated that the
hug with M.L. occurred in the kitchen and added
that, during the hug, M.L.’s hand might have slid
down and touched his buttocks. At one point during the interview, Detective Munson told Ruiz:
Now, we’re going to, we’re going to take
a break here. Okay? For just a minute.

1

M.L. had not taken a polygraph test.

23a
We’re going to, we let you sit in here and,
and think about some of the stuff we
said, but what I want you to realize, Ernesto, is we’re not here as your enemies,
we’re here as the truth. Okay? This isn’t
like the crime of the century, what she’s
claiming that had happened, it’s not a big
deal. But what makes you look bad is if
you start to lie about things that we already know to be the truth and we know
a lot more things than you think that we
know because we, because you’re the last
that we’re interviewing here. Okay? So,
I just want you to have the opportunity
right now to tell us if there was anything
that we’ve already discussed that you
know to not be true and you were just
scared to tell us about it, but it’s not that
big of a deal. Tell us now so that we know
that you’re being honest with us and
you’re not, you’re not lying. Is there anything that you know that you have told
us that is not the truth? Just be honest
with us. We don’t think you’re a bad guy
or anything.
Transcript Vol. 2 at 7. Ruiz told Detective Munson that another hug between him and M.L. had
occurred.
[12] The detectives left the interview room. When
they returned, Detective Munson said to Ruiz:
“The results of this, of this investigation so far,
okay, clearly indicates [sic] to us, to Officer

24a
O’Brien and myself that something, some kind of
touching did occur between you and, and [M.L.].
. . . And, and it was of an inappropriate nature .
. . .” Id. at 11. The detectives continued to interview Ruiz. The entire interview lasted less than
one hour. Ruiz was not restrained during the interview. At the conclusion of the interview, Ruiz
left the police station on his own.
[13] Ruiz was charged with Level 4 felony child molesting on October 16, 2015. On December 3,
2017, Ruiz filed a motion to suppress his statements to the detectives. His jury trial began on
December 5, 2017. After the jury was sworn, the
trial court conducted a suppression hearing and
took the matter under advisement. On December
6, 2017, the trial court granted the motion to suppress, stating:
This is a police setting, this is a secure
facility. Yes, [Ruiz] voluntarily went
there. But he had to be buzzed into the
area or taken into the area of a secure
room, the door is shut.
Detective
O’Brien’s [sic] present. He is told, “You
can walk out the door,” but again, this is
where we get into words. This is what
concerns me. It’s one thing to say, “I can
walk out the door.” I think most of us
here in America that are from here get
the context that I’m free to leave. But
someone who is not originally from here,
this is what caused me concern is that

25a
you’ve got to be very specific they understand that it means basically you’re free
to leave. That’s where I was really tossing with this issue last night. You know,
I don’t believe the officers in this case did
anything inappropriate as far as ill will,
but the issue is objective testing. Would
a reasonable person under the circumstances believe they are free to go? And
what also causes me concern here is
when the second officer comes into the
room and shuts the door and introduces
himself, again, would a reasonable person in this situation, without being told
that “You’re free to leave,” feel free to
leave, and especially when the questioning becomes very focused. And that’s
what one of the case law cases talks
about is basically one of the factors to
consider is has the police, have the police
focused their investigation solely on this
person and communicated that fact to
the Defendant. It’s not just what you in
your heart as an officer know that you’re
focused on this person, but you have in
fact have communicated that fact to the
Defendant. There’s no doubt in this situation that the Defendant was told that
basically, “We believe you did it. We
know you did it. We’ve got proof you did
it,” you know, “She took a lie detector
test. She passed it,” you know, “Why
would she tell us this?” I mean, it’s
clearly [sic] the police communicated to

26a
the Defendant that he was the focus of
the investigation. . . .
If the State is going to use multiple officers to interrogate someone it has to be
clear that just because the second officer
goes into the room or a third or a fourth,
that the situation hasn’t changed. But
when you have a Defendant who is not
originally from this country, who is in a
room with [a] shut door with two (2) officers present, I believe at this point a
reasonable person would not believe they
are free to leave. And therefore, I believe
Miranda was required.
Id. at 43-44.
[14] The trial court declared a mistrial “giv[en] the
lateness of the Motion to Suppress.” Appellant’s
Appendix Vol. 2 at 13. The State noted that without the suppressed evidence, it could not proceed
on the charge. The trial court issued its written
order granting the motion to suppress on December 13, 2017. The State now appeals pursuant to
Ind. Code § 35-38-4-2(5).2 Additional facts will be
provided as necessary.

This statute addresses appeals by the State and provides,
in relevant part, that the State is permitted to appeal from “an
order granting a motion to suppress evidence, if the ultimate effect of the order is to preclude further prosecution.” I.C. § 35-384-2(5).
2

27a
Discussion & Decision
[15] The State argues that the trial court erred when
it granted Ruiz’s motion to suppress his statements to the detectives. When reviewing a trial
court’s ruling on a motion to suppress, we must
determine whether substantial evidence of probative value supports the trial court’s decision.
State v. Quirk, 842 N.E.2d 334, 340 (Ind. 2006).
Where a trial court has granted a motion to suppress, the State appeals from a negative judgment and must show that the trial court’s grant
of the motion was contrary to law. State v. Carlson, 762 N.E.2d 121, 125 (Ind. Ct. App. 2002). We
will reverse a negative judgment only when the
evidence is without conflict and all reasonable inferences lead to a conclusion opposite that of the
trial court. Id. We will not reweigh the evidence
or judge witnesses’ credibility, and we will consider only the evidence most favorable to the
trial court’s ruling. Id.
Miranda Rights
[16] A person must be informed of the rights to remain silent and to have an attorney and that
what he says may be used against him any time
“law enforcement officers question a person who
has been ‘taken into custody or otherwise deprived of his freedom of action in any significant

28a
way.’”3 Luna v. State, State, 788 N.E.2d 832, 833
(Ind. 2003) (quoting Miranda v. Arizona, 384
U.S. 436, 444 (1966)). Statements given in violation of Miranda are normally inadmissible in a
criminal trial. Morris v. State, 871 N.E.2d 1011,
1016 (Ind. Ct. App. 2007), trans. denied. “Miranda warnings do not need to be given when the
person questioned has not been placed in custody.” Johansen v. State, 499 N.E.2d 1128, 1130
(Ind. 1986). In determining whether a person
was in custody or deprived of freedom such that
Miranda warnings are required, “the ultimate
inquiry is simply whether there is a ‘formal arrest or restraint on freedom of movement’ of the
degree associated with a formal arrest.” Luna,
788 N.E.2d at 833 (quoting California v. Beheler,
463 U.S. 1121, 1125 (1983)). We will make this
determination “by examining whether a reasonable person in similar circumstances would believe he is not free to leave.” Id.; see also King v.
State, 844 N.E.2d 92, 96-97 (Ind. Ct. App. 2005)
(“The test is how a reasonable person in the suspect’s shoes would understand the situation.”).
We will examine all the circumstances surround-

“[A] defendant is entitled to the procedural safeguards of
Miranda only if subject to custodial interrogation.” Lawson v.
State, 803 N.E.2d 237, 239 (Ind. Ct. App. 2004) (emphasis
added), trans. denied. “‘Interrogation’ is defined as ‘express questioning and words or actions on the part of the police that the
police know are reasonably likely to elicit an incriminating response from the suspect.’” Id. (quoting White v. State, 772 N.E.2d
408, 412 (Ind. 2002)). The State appears to concede that the detectives’ questions constituted “interrogation.”
3

29a
ing an interrogation, and are concerned with “objective circumstances, not upon the subjective
views of the interrogating officers or the subject
being questioned.” Gauvin v. State, 878 N.E.2d
515, 520 (Ind. Ct. App. 2007), trans. denied.
[C]ourts have identified the following
factors to be significant in determining
whether a person is in custody: whether
and to what extent the person has been
made aware that he is free to refrain
from answering questions; whether
there has been prolonged coercive, and
accusatory questioning, or whether police have employed subterfuge in order to
induce self-incrimination; the degree of
police control over the environment in
which the interrogation takes place, and
in particular whether the suspect’s freedom of movement is physically restrained or otherwise significantly curtailed; and whether the suspect could
reasonably believe that he has the right
to interrupt prolonged questioning by
leaving the scene.
Sprosty v. Buchler, 79 F.3d 635, 641 (7th Cir.
1996), cert. denied (internal citations omitted).
[17] The crucial question before us is whether Ruiz
was “in custody” during the interrogation for
purposes of Miranda. The State asserts that
Ruiz was not in custody when he gave his state-

30a
ments, and, thus, not subjected to a custodial interrogation that would require Miranda warnings. According to the State, Ruiz was not in custody because he was not restrained in any way
and was free to leave the police station at any
time.
[18] Ruiz contends that he was in custody at the time
of the interrogation because, under the totality
of the circumstances, a reasonable person in his
situation would believe “there was a restraint of
freedom to the degree associated with a formal
arrest.” Appellee’s Brief at 12. In support of his
contention, he maintains that he was interrogated by two different police detectives; the second detective’s demeanor was “more aggressive,”
and the second detective did not tell Ruiz that he
did not have to speak with him; there was no evidence that Ruiz knew the doors he entered at
the police station were unlocked; the detectives
used “accusatory questioning”; the detectives
told Ruiz that all the evidence pointed to him
having committed the crime; and the detectives
told Ruiz a lie – that the alleged victim had
passed a polygraph test. Id.
[19] The facts of this case are quite similar to those in
Luna, where police asked a molestation suspect
to come to the police station to discuss allegations against him. The suspect drove himself to
the police station, where he was interviewed in
an office, behind closed doors, by two officers.
The officers told the suspect that he was free to

31a
leave at any time. After about an hour of interrogation, during which the suspect confessed, he
was allowed to go home. Our Supreme Court
concluded, “a person who goes voluntarily for a
police interview, receives assurances that he is
not under arrest, and leaves after the interview
is complete has not been taken into ‘custody’ by
virtue of an energetic interrogation so as to necessitate Miranda warnings.” Luna, 788 N.E.2d
at 834.
[20] In Luna, our Supreme Court relied on Oregon v.
Mathiason, 429 U.S. 492 (1977). In Mathiason,
police initiated contact with the defendant who
agreed to come to the patrol office. Accompanying the officer into a closed room, the defendant
was told he was suspected of committing a burglary but was not under arrest. The police interrogated him rather aggressively and told him
(falsely) that his fingerprints were found at the
scene of the crime. During a half-hour interview,
the defendant gave a recorded confession. He left
the police station after the interview. The Supreme Court held that Mathiason was not in custody or otherwise deprived of his freedom of action in any significant way. Specifically:
Such a noncustodial situation is not converted to one in which Miranda applies
simply because a reviewing court concludes that . . . the questioning took place
in a “coercive environment.” Any interview of one suspected of a crime by a police officer will have coercive aspects to

32a
it, simply by virtue of the fact that the
police officer is part of a law enforcement
system which may ultimately cause the
suspect to be charged with a crime. But
police officers are not required to administer Miranda warnings to everyone
whom they question. Nor is the requirement of warnings to be imposed simply
because the questioning takes place in
the station house, or because the questioned person is one whom the police suspect. Miranda warnings are required
only where there has been such a restriction on a person’s freedom as to render him “in custody.” It was that sort of
coercive environment to which Miranda
by its terms was made applicable, and to
which it is limited.
Id. at 495.
[21] Here, Ruiz voluntarily travelled to the police station. He was taken to an interview room in the
administrative part of the station, and he was
seated near the door. At no point was Ruiz restrained. Before the interview began, Detective
O’Brien told Ruiz that he did not have to talk to
him, and that he could “get up and walk out [the]
the door” to the interview room at any time.
Transcript Vol. 1 at 215. When Detective Munson entered the room, he was wearing plain
clothes, and he did not have his firearm. The entire interview lasted less than one hour; Ruiz
was not arrested during or immediately after the

33a
interview; and Ruiz was allowed to leave the police station on his own. Ruiz makes much of the
facts that he was a suspect, that he was interviewed by two detectives at the same time, that
Detective Munson stated (falsely) that the victim
had passed a polygraph test, and that Detective
Munson’s interview style might have been “more
aggressive” (Appellee’s Brief at 12); however,
these factors do not, under these circumstances,
render the interview a custodial interrogation requiring Miranda warnings. See Mathiason, 429
U.S. at 495-96 (noncustodial situation not converted to one where Miranda applies simply because, absent formal arrest or restraint on freedom of movement, questioning took place in a coercive environment, and, officer’s false statement about finding defendant’s fingerprints at
the scene had “nothing to do with whether [defendant] was in custody for purposes of Miranda); see also Luna, 788 N.E.2d at 834 (requirement of Miranda warnings is not to be imposed simply because the questioned person is
one whom the police suspect).
[22] We conclude that based on the totality of the circumstances, a reasonable person in circumstances similar to those Ruiz experienced would
believe he or she was free to leave. Thus, because
Ruiz was not in custody when he was interrogated by the detectives, Miranda did not apply.
The trial court’s grant of Ruiz’s motion to suppress his statements to the detectives was contrary to law.

34a
[23] The trial court erred in granting Ruiz’s motion to
suppress his statements to the detectives. We reverse and remand for further proceedings.
Najam, J. and Robb, J., concur.

35a
In the
Indiana Supreme Court
––––––––––––––––––––
State of Indiana,
Appellant,

Supreme Court Case No.
19S-CR-336

v.

Court of Appeals Case No.
36A01-1712-CR-2999

Ernesto Ruiz,
Appellee.

Trial Court Case No.
36C01-1510-F4-25

ORDER
Appellant’s Petition for Rehearing is hereby
DENIED.
Done at Indianapolis, Indiana, on 8/23/2019.

-------------------------------------------Loretta H. Rush
Chief Justice of Indiana
All Justices concur, except Slaughter, J., who votes
to grant rehearing.

36a
STATE OF INDIANA

)

IN THE JACKSON
CIRCUIT COURT

) SS:
COUNTY OF JACKSON)
STATE OF INDIANA

ANNUAL TERM
2017
CAUSE NO.
36C01-1510-F4-25

VS
ERNESTO B. RUIZ
ORDER
On December 4, 2017, the Court conducted a hearing
on the Defendant's Motion to Suppress Evidence. The
Court after reviewing the evidence, hearing the arguments of counsel and reviewing the case law provided
by the parties as well as other case law, on December
5, 2017, the Court announced on the record that the
Defendant's Motion to Suppress Statements is hereby
GRANTED.

37a
The Court will allow the oral statements made by the
Defendant to law enforcement in reference to this
cause for impeachment purposes only.

Dated this 13th day of December 2017.

Distribution:
_____ State of Indiana
_____ Andrew J. Baldwin, Attorney for Defendant
_____ Clerk

38a
In The
INDIANA COURT OF
APPEALS
APPELLATE NO.: 36A01-1712-CR-2999
STATE OF INDIANA ) APPEAL FROM THE
JACKSON VS
) CIRCUIT COURT
ERNESTO B. RUIZ ) TRIAL COURT CAUSE NO:
) 36C01-1510-F4-000025
BEFORE THE HONORABLE RICHARD W.
POYNTER, JUDGE
_______________________________________________
TRANSCRIPT OF JURY TRIAL
HELD ON DECEMBER 5 and 6, 2017
VOLUME 1 of 2
PAGES 1 to 250
ATTORNEYS FOR
APPELLANT:

ATTORNEYS FOR
APPELLEE:

Andrew J. Baldwin
Attorney at Law
150 North Main
Street
Franklin, IN 46131

Indiana Attorney
General
302 West Washington
Street
Fifth Floor

39a
Indianapolis, IN
46204
Shelina Stuckwisch
Court Reporter
Jackson Circuit Court

40a
STATE OF INDIAN )

IN THE JACKSON
CIRCUIT COURT

) SS:
COUNTY OF
JACKSON

)

STATE OF INDIANA
VS

CAUSE NO.
36C01-1510-F4000025

ERNESTO B. RUIZ
TRANSCRIPT OF JURY TRIAL
HELD ON DECEMBER 5 and 6, 2017
BEFORE THE HONORABLE RICHARD W.
POYNTER, JUDGE VOLUME 1
Shelina Stuckwisch Court
Reporter JACKSON
CIRCUIT COURT
111 South Main Street
Brownstown, Indiana
47220

41a
an expert in that area and that would be only, I guess
my only concern.
MR. KYLE:

I think that’s bolstering. I think

that’s absolutely bolstering position. I think that’s almost the definition of bolstering.
MR. WALKER:

Well, what are you bolster-

ing though? I guess I don’t understand that. We’re
talking about behaviors, we’re not saying that it’s not
a crime or that it’s intent for—
THE COURT: Well, my opinion is, State, it’s not
appropriate, but however, this is a Motion in Limine.
If you want to do research tonight and get back with
me tomorrow I’ll address this issue.
MR. WALKER:

Great.

THE COURT: But my inclination is is what the
officer’s opinion is as far as this “grooming”, the issue
is the facts are the facts. What was said and what was

42a
done. So that’s my opinion as of now, but State, if you
want to look into this tonight and come back with me
tomorrow and say, “Judge, I’ve found some law that
says you’re wrong,” I’ll be more than happy to revisit
this issue.
MR. WALKER:

I understand, Your Honor.

Thank you.
THE COURT: Okay. Well, let’s deal with the Defendant’s Motion to Suppress Evidence that was filed
with this Court on yesterday, I think, no, two (2) days
ago, on the 3rd, it looks like late at night on the 3rd.
Okay. All right. Is it Mr. Kyle? Are you going to
do this?
MR. BALDWIN:

I’ll start it.

THE COURT: Mr. Baldwin.
MR. BALDWIN:

Well, I mean, some of this,

and Mr. Munson is here in case you want to ask him.

43a
I’m going to make some statements that I think are
factually accurate. Thankfully he is here to agree or
disagree, if you need to ask him questions. So, basically here’s what we have. And I don’t know, I know
that the State was going to give you the video to
watch.
THE COURT: And I told the State to hold off because I didn’t want you objecting, so I didn’t know
what your position was so the State did not give me
the video ahead of time.
MR. BALDWIN:

Oh, okay. That would’ve

been fine by me, for what it’s worth. But, what you’re
going to find is that our client, the facts are they had
gone to his house, the police officers, I think it was
Detective Munson had gone to his house-- Oh, it was
O’Brien? Okay. One (1) of the two (2) officers goes to
the house and then, “Hey, can I talk to you?” and for

44a
whatever reason it didn’t happen then, so our client
drives to the jail later in the day.
THE COURT: He goes to the jail or to the police
department?
MR. BALDWIN:

To the police department.

I’m sorry.
THE COURT: Okay.
MR. BALDWIN:

It’s been a long day. All

right. So, he goes there and from the deposition testimony we know that it’s a secured facility going in, but
it’s not going out. We don’t, at this time we don’t have
the evidence of what was in the Defendant’s mind to
what he knew his ability to go in and out were. They
are asked, it’s Detective O’Brien that is initially in
there. What we find out is through, and we’ve learned
this through deposition testimony, is they knew that
eventually Detective Munson was going to come into

45a
the interview room and O’Brien brings him in, tells
him, you know, asks him, “Tell me about your English. How do you-- Do you understand it?” and he
said, “You’re free to leave.” He says, “You don’t have
to talk to me.” O’Brien. Then he asks him about his
level of understanding and he said, you’ll have to say
it’s kind of, pretty good English. It

was

somewhat

non-committal. It lasted about four (4) seconds, five
(5) seconds, the asking of, “Tell me about your level of
understanding English.” It’s not a very lengthy,
there’s not a whole lot, well, none of, “Let me ask you
more about this. You said pretty good,” or whatever
the language was, “Tell me what that means. Tell me
what you understand,” and that kind of thing. So,
there’s a very small of that and then he begins asking
him questions. He doesn’t read him Miranda. And
then several minutes pass, and it’s a very kind of a

46a
mundane style and just as they had previously discussed prior to the interview taking place, Detective
Munson shows up. And I believe when you review the
video you’ll see it’s a more aggressive style.

And it’s

a style that is different and contrasting. Then a couple
of things happen that cause the Defense some concern, especially as related to the case law that we will
provide to you in a moment. And that is Detective
Munson lies to the Defendant about certain things.
He tells him, “We’ve got a polygraph test and she’s
passed it,” and you know, he’s listening. Then he says,
“She talks to-- And I don’t remember if it’s Munson or
O’Brien, but then somebody says, “She’s also admitted that you kissed her.”
THE COURT: What now?
MR. BALDWIN:

Also she, the purported

“victim has said that you kissed her and we know

47a
that,” and that is inaccurate. She, in the video, in her
video, and again, you won’t see her video but I will tell
you as an officer of the Court, she never says that on
that event that he kissed her. At best they kind of I’d
say ask a leading question and she says, “Maybe. I
don’t remember,” but the way it was presented was,
“We know that you kissed her. You kissed her. Why
would she say these things? Why would she lie? Why
would she pass a polygraph?”, these types of things
and the, “We know that you did it,” and these types of
things. “We know that you did it.” And so, kind of
what our argument is, and there’s a case called State
vs Aynes and it’s 715 NE2d 945. It’s a very similar set
of facts. Of course it’s not exact, but the main thrust
of that case is when you have somebody come in you
don’t read Miranda and part of the voluntariness of
whether they’re free to leave or not. One of the things

48a
that was majorly looked at there is did this turn from
a, you know, did it turn into a custodial interrogation
and they started accusing, in the Aynes case they
started accusing the guy. He came in, it was on a (indiscernible) case.

“Hey, you know, come on in.

You’re free to leave if you want.” Actually I don’t think
that they said he was free to leave, that’s one of the
distinguishing parts, but in the end they started hammering the guy, you know, “We know you did this,”
and that type of thing. It turned very, you know, very
aggressive. And the Aynes Court said that when you
do that, that’s non-custodial and they threw out the
case. It is custodial, I’m sorry, it is custodial and they
threw out the whole thing. And so when we’re looking
at the facts here, and you know, kind of, one of the
things that didn’t exist in the Aynes case is the Hispanic part. You know, we’re also concerned about

49a
that, that the Spanish language part was just very
quickly overlooked. It was like, you know, “Do you
speak it?” and up until just now (indiscernible) remember the two (2) or three (3) or four (4) word phrase
that Ernesto said, you know, “Yeah, it’s okay,” or
whatever. And even when you are watching Ernesto’s
video, pay attention to some of the answers he was
giving. He’s not being responsive to some of the questions. It’s like he doesn’t really completely understand. There’s a few moments of that. And we’re concerned that if he didn’t understand that, he didn’t-You know, what we should’ve heard was, if this was
truly just a quest for the truth and not trying to intimate him, what we should’ve heard is, “Listen, I want
to make sure, I want to make sure that you understand English and that you’re understanding my
questions,” or “what you’re responding is, you know,

50a
what you think that I’m, is proper. Do you think it’d
be better to have an interpreter?”. That would have
been proper. And it also would have been proper, and
this is a very big thing to me, when O’Brien says, and
I’m sorry to just use last names, when Detective
O’Brien says, “You don’t have to talk to me,” he didn’t
say, “You don’t have to talk to me or Detective Munson when he walks in.” He just said, “You don’t have
to talk to me.” And so Detective Munson walks in and
he just kind of, he has a very commanding presence
and takes over the room and he started asking questions and Detective Munson didn’t say, “Hey, by the
way, you don’t have to talk to me either and you also
have the right to leave when I’m here.” And all of a
sudden it turned, and it’s not a terrible video for us,
honestly, you know, but it’s, it’s, we just believe based
upon the Aynes case that his Constitutional rights

51a
were violated. He should not, he should’ve had Miranda read to him, he should’ve been told about, you
know, having an interpreter.
THE COURT: Miranda, Counsel, only applies in
two (2) situations, especially in an interrogation.
Clearly you have an interrogation, that’s clear. The
question is do you have custody. That’s the issue.
MR. BALDWIN:

Right.

THE COURT: If the Defendant was told, “You’re
free to leave,” then where’s the custody?
MR. KYLE:

Your Honor, may I address that?

THE COURT: All right.
MR. KYLE:

A few cases, State vs Aynes, Bean

vs State, 973 NE2d 35 and McIntosh vs State, 829
NE2d 531.

McIntosh in particular addresses a case

where the Defendant is specifically advised that
they’re free to leave but the Court goes on to say that’s

52a
not the only dispositive factor in every situation. It’s
a totality of the circumstances test that a reasonable
person in that situation would actually believe they’re
free to leave and under arrest. So as the interrogation
went on, even though he may have been addressed
that he’s free to leave at the very beginning, under the
totality of the circumstances a reasonable person
wouldn’t believe when they’re being subjected to all of
this evidence that they committed a crime and some
of this evidence isn’t even true, that they aren’t free
to leave at that point. That being placed in that situation when you’re being told evidence against you,
that’s one of the factors that goes into whether or not
somebody’s actually in custody. I mean, some of the
other factors are the situation, the room, whether the
door is shut, whether or not it’s a secured facility,
whether or not the person actually knew they could

53a
get up and walk out, those are all factors that goes
into the determination of whether or not this is custodial. And just simply saying, “You’re free to leave,”
and McIntosh uses some language that that’s not the
talisman that is the discussion here. It’s a totality of
the circumstance of what a reasonable person would
believe.
MR. BALDWIN:

And I would just add to

that, I’m sorry, when you see the video he says,
“You’re free to walk out that door.” We’re talking
about a Hispanic guy and that door there. There’s
other doors to get out. And I know that sounds silly
and I’m not trying to, I’m really not trying to dance
here, but we’re talking about a guy’s rights and we’re
talking about a guy who is not a natural born citizen
here and when he said, “You can walk out that door,”
what does that mean? Go to the bathroom? And the

54a
one that said it was O’Brien. Munson walks in and he
doesn’t say, “You can walk out.” He’s more of a heavy
presence. I’m just saying that when he walks in especially, and I’m not trying to, you know, look, I’m not
trying to blame these guys for anything, I’m really
not, but when he comes in he’s a, he is a, he’s a, I
mean, you know, probably as when you were Prosecutor had to deal with, he’s a very, you know, intense
guy and that matters, I think, in your analysis. I
think that matters. So I’d ask you just to watch it, especially when that happens, knowing that he didn’t
get read his Miranda rights, he doesn’t know he can
have a lawyer, that he doesn’t speak English, they
didn’t explore that, all those things. I think, I understand what you’re saying and that’s my answer to
your question. It’s all those factors should be factored

55a
in when you decide whether or not he’s in custody and
plus those cases.
THE COURT: Well, let me ask you, Counsel, you
cited some cases. Do you have a case on point that
says that lying to a Defendant about evidence somehow changes the scenario from in custody versus out
of custody?
MR. KYLE:

Not specifically lying, but telling

somebody that you have specific evidence that they
committed a crime does.
THE COURT: Okay. And what’s that case?
MR. KYLE:

That’s the McIntosh case.

THE COURT: Okay. And what’s that cite again?
MR. KYLE:

829 NE2d 531.

THE COURT: 531?
MR. KYLE:

Yes, sir.

THE COURT: And that’s a Court of Appeals?

56a
MR. KYLE:

It is.

THE COURT: Okay.
MR. BALDWIN:

I think the Aynes case

talked on that.
MR. KYLE:

Aynes does that as well. And I,

Bean vs State lists a bunch of factors that the 7th Circuit has used and the Court there addresses a list of
factors and that cite is 973 NE2d 35.
THE COURT: NE2d 35?
MR. KYLE:

Yes, Your Honor.

THE COURT: And that is the Aynes case?
MR. KYLE:

Bean. B-E-A-N.

THE COURT: Oka.
MR. KYLE:

vs State.

THE COURT: All right.

State, do you want

to—I know we’ve got to listen to some evidence here,
but State, do you want to say anything?

57a
MR. WALKER:

I’ll just be kind of brief. It

sounds like we’ve got, the main issue being was he in
custodial interrogation. I think the evidence is you’re
going to see, and I will call the officer briefly. I’m not
going to be here forever doing that. But, that he came
of his own accord and the door was propped open, he
was advised that he could leave. This was not a custodial interrogation. I’m not aware of any case law that
says that because one officer is asking a question and
then another officer who is big and scary looking
comes in and starts asking questions that that suddenly changes to a custodial interrogation and that
seems to me what it is. Because Troy came in second
somehow it changes from a non- custodial to a custodial interrogation and I don’t think that’s correct, so
frankly, Your Honor, I don’t think we have custodial
interrogation here. Second, Your Honor, the issue

58a
that has been raised of his ability to speak English,
you’ll hear that he’s been in this country for sixteen
(16) years and, Your Honor, I know the Court has
heard cases, has heard issues like this before. You can
see him on the video, he’s responding to questions,
he’s giving answers, he’s thinking about the answers
that he’s going to give. There’s a part in the video
where they actually leave the room to let him think.
They come back, he’s got a different answer. I think
that the, and I don’t know exactly what Andy is referring to with the non-responsive or confusion, I see a
lot of situations where he’s obviously thinking about
what he’s going to say. I don’t think that that indicates that he doesn’t understand their question. That
is something that the Court can glean from context,
Your Honor. If you want me to make a record I can
call both of these Detectives up—

59a
THE COURT: Well, it’s a Motion to Suppress,
State, so it’s your burden.
MR. WALKER:

All right. So I’m going to

call Detective Greg O’Brien to the stand.
THE COURT: All right. Please come forward,
Detective.

Do you solemnly swear or affirm under

the penalties

60a
Received: 1/2/2019 3:07 PM

IN THE
INDIANA COURT OF
APPEALS
APPELLATE NO.: 36A01-1712-CR-2999
APPELLATE NO.: 36A01-1712-CR-2999
STATE OF INDIANA ) APPEAL FROM THE
JACKSON VS
) CIRCUIT COURT
ERNESTO B. RUIZ ) TRIAL COURT CAUSE NO:
) 36C01-1510-F4-000025
BEFORE THE HONORABLE RICHARD W.
POYNTER, JUDGE
TRANSCRIPT OF JURY TRIAL
HELD ON DECEMBER 5 and 6, 2017
VOLUME 1 of 2
PAGES 1 to 55
ATTORNEYS FOR
APPELLANT:

ATTORNEYS FOR
APPELLEE:

Andrew J. Baldwin
Attorney at Law

Indiana Attorney
General

61a
150 North Main Street 302 West Washington
Franklin, IN 46131
Street
Fifth Floor
Indianapolis,
IN
46204
Shelina Stuckwisch
Court Reporter
Jackson Circuit Court

62a
STATE OF INDIAN )

IN THE JACKSON
CIRCUIT

) SS:
COUNTY OF
JACKSON

)

STATE OF INDIANA
VS

CAUSE NO.
36C01-1510-F4000025

ERNESTO B. RUIZ

TRANSCRIPT OF JURY TRIAL
HELD ON DECEMBER 5 and 6, 2017
BEFORE THE HONORABLE RICHARD W.
POYNTER, JUDGE VOLUME 2
Shelina Stuckwisch Court
Reporter JACKSON
CIRCUIT COURT
111 South Main Street
Brownstown, Indiana
47220

63a
MR. BALDWIN:

Just the “Sit tight” busi-

ness did happen twice and it did happen earlier and
it did happen at the end and that’s partly the words
and partly the attitude of that. When you’re saying,
“Sit tight” that’s the attitude that had to be permeating in that room with everything else going on, so—
THE COURT: Well, let me deal with the easier
aspect of this motion. As far as the Defendant not understanding the English language, there’s nothing in
this video that makes me believe that he did not understand the questions. I think every question he, I
believe he was searing for answers at times but it
wasn’t like, “Okay. Did she touch your butt?”, “Well, I
ordered pizza.” Okay? I mean, the answers were
clearly answering the question that he was asked. I
don’t see anything in there that he didn’t understand.
I don’t think there’s a basis to suppress the evidence

64a
on the English barrier. I think the issue does come
down to whether or not he was in custody for purposes
of Miranda. That’s under the Fifth Amendment.
There is no Sixth Amendment issue here ‘cause Sixth
Amendment is post-arrest and when you’ve been under the thumb of the State. This is a Fifth Amendment right to counsel under the Constitution implied
by the Fourteenth Amendment. That’s what this is.
Of course, Article I of Indiana’s Constitution as well.
So what we’re dealing with here is whether or not
there’s a Miranda issue. I do want to look at these
cases, I don’t want to shoot from the hip. I do want to
look at if there’s any cases out there about the cultural
barrier. I don’t know if there’s anything on there but
I want to look at whether or not you have someone
from a foreign country or not, if there’s an increased
burden on the State to clearly advise someone of their

65a
rights. I don’t know. I mean, this is an issue I haven’t
had to look up any time in recent history. I’m going to
do some research on my own on this issue, if there’s
any kind of stricter scrutiny with somebody who’s not
a natural speaking English speaker, not from this
country, whether or not there’s a burden on the State
to further protect their rights. I don’t think there is,
but I want to look at the issue, so I do want to look at
that issue tonight. I’ll make my decision tomorrow
morning once I do some research tonight. Counsel, if
you want to supplement the record before we bring
the Jury in tomorrow, that’s fine. If there’s anything
you want to argue tomorrow morning before I make
my decision, you can. Okay? All right.
MR. BALDWIN:
have to.

Well,

hopefully

I

won’t

66a
THE COURT: All right. With that being said,
Counsel, I want the Jury here by 8:30. Hopefully, unless there’s some preliminary matters we need to address, hopefully we’ll get started no later than 9:00
o’clock. Okay? So State, be ready to-- Well, we’ll do
opening statements and Preliminary Instructions.
MR. BALDWIN:

I am sorry to bring this up

and this is not, we can deal with this tomorrow morning, but Preliminary Instruction Number 8 is not the
current Pattern and so the actual Pattern, I have a
Constitutional argument about it. I don’t want to, I
know it’s late but I want to raise that there is a more
current Pattern that, especially on this type of case,
that is something that’s very important. I’m happy to
argue it now but I know everybody (indiscernible) and
I want to get out of here and all that.

67a
THE COURT: All right. Well, I don’t remember
what the Pattern number is ‘cause I don’t—
MR. WALKER:

I have it here, Your Honor.

MR. BALDWIN:

It’s the credibility Instruc-

tion.
THE COURT: I know. But I don’t know the actual number.
MR. BALDWIN:

Oh, I don’t either.

THE COURT: I know it’s Number 8, but I’m
talking about the actual Pattern Number.
MR. BALDWIN:

What we’ll do, Judge, to

make things easier is we will send to the Court and to
the State what we believe to be the current Pattern,
if that would be helpful and then we can—
THE COURT: Well, what specifically is not the
current Pattern?

68a
MR. BALDWIN:

The third, where it says,

“You should not disregard the testimony of any witness without a reason, without careful consideration
of the testimony. You must determine which of the
witnesses you will believe and which of them you will
disbelieve.” The new Pattern, I mean, ‘cause that, I
think that the problem with that one, why it was
changed is it could be considered as lowering the burden of proof to preponderance of the evidence. You either believe this guy or that guy. So now it says something like, “You must determine who you’re going to
believe. You can believe some of the testimony, none
of the testimony, all of the testimony,” but it gives you
options.
THE COURT: That’s the paragraph you’re referring to?
MR. BALDWIN:

Yes.

69a
THE COURT: Is there anything else?
MR. BALDWIN:

No.

THE COURT: Okay. I have the Pattern Instructions, I have my access to WestLaw. I’ll look up and if
it has changed I don’t have a problem changing it.
MR. BALDWIN:

Okay.

THE COURT: So, anything else on the Preliminary Instructions other than that paragraph?
MR. BALDWIN:

No, Your Honor.

THE COURT: Anything, State?
MR. WALKER:

No, Your Honor. I trust

that you’ll find the most current Pattern and—
THE COURT: Yeah. I mean, it’s right there. I’ve
just got to find which Pattern it is. I don’t remember.
I don’t have them all memorized off the top of my head
but I’ll find it. Okay. All right, Counsel. Enjoy your
evening. I’ll see you tomorrow morning.

70a
MR. BALDWIN:

Thank you.

MR. WALKER:

Thank you.

71a
DECEMBER 6, 2017
(OUTSIDE THE PRESENCE OF THE JURY)
THE COURT: All right. Jackson Circuit Court is
back on the record on this 6th day of December, 2017.
We’re here today in the continuation of the Jury Trial
involving the State of Indiana vs Ernest B. Ruiz. This
is cause number 1510-F4-25. Again the State is represented today by its Deputy Prosecuting Attorney
Herbert Walker; Defendant appears in person and
with counsel, and of course interpreters are present
for the Court as well. The Jury is outside the presence
of the courtroom. It’s my understanding they’re eating
some fat-free doughnuts this morning so they’re going
to have a few moments to eat those doughnuts. Okay.
MR. WALKER:

Your Honor, and I apolo-

gize, I was discussing something with him. Could I
just run and get my file?

72a
THE COURT: That’s fine.
MR. WALKER:

I’m sorry. Thank you, Your

Honor.
THE COURT: And I gave you guys a revised Preliminary 8. They changed that one (1) sentence and
you are correct, so—
MR. BALDWIN:

Yeah. I was battling that

for years ‘cause I always felt that that lowered the
burden of proof and finally, I’m going to take full
credit for it, of course, but it finally changed.
THE COURT: I just wish they’d send out a notice
because it’s like they think we should just have time
to go back and re-read the same things over and over
again. It’s like, “Why don’t you send a notice out – oh
by the way, the Preliminary Instruction you’ve been
giving for years has been changed.”

73a
MR. BALDWIN:

That would be nice. That

would be nice for sure.
THE COURT: I guess we have nothing else to do
in our day than just go back and reread Jury Instructions all the time, I guess.
MR. BALDWIN:

Obviously, you know, it’s

not like you’re up to date at 5:00 at night trying to rule
on important evidentiary issues or anything. I
mean—
MR. WALKER:

Thank you, Your Honor.

I’m sorry.
THE COURT: Okay. Let the record reflect again
the Jury is outside the presence of the Court. Yesterday we argued some issues on the one Motion in
Limine that the Defense filed. The State had concerns
about the issue of grooming that, whether or not the
officer would be able to testify to grooming and I said

74a
my inclination was not to allow it. State, do you have
anything you want to add on that?
MR. WALKER:

Your Honor, I do not and I

don’t, I don’t think we’re going to pursue that.
DIRECT EXAMINATION OF: GREG O’BRIEN
THE COURT: Okay.
MR. WALKER:

I think we’re going

to-- I just, I don’t see the need for it.
THE COURT: Yeah. I just don’t think it’s relevant in this situation about any grooming issue. The
facts are the facts. I just don’t see it’s relevant here,
so I will grant the Defense Motion in Limine as it is
written. Okay. As far as the Motion to Suppress, it’s
your motion. Do you wish to say anything else, Mr.
Baldwin, on your motion?
MR. BALDWIN:

I might after your ruling.

75a
MR. WALKER:

Your Honor, can I have

leave just to ask one (1) question of Greg O’Brien? And
I, this is, and I ask for this leave because this was a
fairly late motion that was filed.
MR. BALDWIN:

No problem. That’s fine.

MR. WALKER:

I just have one (1) question

that I want to ask him. I think just one (1).
THE COURT: All right.

Come on up here,

Mr. O’Brien. I remind you you’re still under oath from
yesterday when you testified in the hearing. Okay. Go
ahead.
GREG O’BRIEN, having been first duly
sworn to tell the truth, the whole truth and
nothing but the truth, testifies and states as
follows, to-wit:
DIRECT EXAMINATION
QUESTIONS BY: HERBERT K. WALKER

76a
CROSS EXAMINATION OF: GREG O’BRIEN
Q

I want to clarify.

When you leave the

police department do you have to, is there a person
you have to check with before you leave?
A

No.

Q

Is it like a button that you push?

A

You can hit a handicapped button and

it’ll open the door or push on the door.
Q

Okay. Did you see him leave?

A

You know, I don’t remember.

MR. WALKER:

Okay. That’s fine. That’s

all I had to ask. Thank you.
THE COURT: Okay.
CROSS EXAMINATION
QUESTIONS BY: ANDREW BALDWIN
Q

But to get into the inner—

MR. BALDWIN:

I’m sorry, Judge.

77a
Q

But to get into the inner sanctum of

where he was interviewed, that’s secured.
A

Okay. So to clarify, you can walk into the

lobby of the police department.
Q

Right.

A

There’s a glass door there that leads to

the Administration, Squad Room, the elevators and
the stairwell. That door has a key fob on it.

But

if

you hit, when you walk out, I walk out to the lobby, I
hit it, that’s a handicapped door so if you push it open
or hit the button it stays open for like a minute or
whatever to come in, so you may not have had to key
fob back in. You know, you stand at the door-- I don’t
remember what I did that morning, or that afternoon.

78a
Q

I just wanted, because I think what I un-

derstood yesterday, I want to make sure this is accurate, is what you’re talking about with the key fob is
he couldn’t get in without a key fob. Correct?
A

Correct.

Q

Okay. And so, and nobody told him, from

yesterday’s testimony, nobody told him that, “If you
go out, even though you couldn’t come out you can still
out,” nobody bothered, nobody told him that. Correct?
A

Yes.

Q

And also that when you said, “You can

walk out of that door,” you were actually in a room
that had a door, a physical door. Correct?
A

Correct.

Q

And the door that he had initially en-

tered to get into the, from the lobby area into the what
I’ll call the inner sanctum where all those areas were

79a
that you described that was secured, that was a separate door also.
A

Yes.

So you would’ve walked into that

glass door into the vestibule. I don’t know what you
call that area.
Q

Right.

REDIRECT EXAMINATION OF: GREG O’BRIEN
A

It splits off. We would’ve gone up the el-

evator and the stairs. Those doors just open, they’re
just regular—We would’ve got off, during the day
there is a second Detective Office keyed door, but that
door is kept propped open during the day while we’re
in the office..
Q

Right. But—

A

..and then we would’ve gone into the De-

tectives’ Office.

80a
Q

So when you said “that door”, you were

pointing to the door that was, from the room that he
was in..
A

Right.

Q

..but you weren’t pointing to the door

that had been secured when he walked in. Correct?
A

Yeah. You wouldn’t be able to see it.

Q

And lastly-- Let me-- I had one other--

Well, it’s escaping me, so I will—
MR. BALDWIN:

No other questions.

THE COURT: Okay. Anything else, State?
MR. WALKER:

I just want to simplify this.

REDIRECT EXAMINATION
QUESTIONS BY: HERBERT WALKER
Q

You’ve heard the old roach motel ads,

“You can check in but can’t check out.”
A

Right.

81a
Q

You have, you need a key to get up into

the Detectives’ area of the..
RECROSS EXAMINATION OF: GREG O’BRIEN
A

Right.

Q

..or you’ve got to be buzzed in but you can

walk out?
A

Yes.

Q

You do not need a key to walk out?

A

Correct.

MR. WALKER:

That’s all I have. Thank

MR. BALDWIN:

Actually I do remember my

you.

question, Judge. I’m sorry.
RECROSS EXAMINATION
QUESTIONS BY: ANDREW BALDWIN
Q

You said specifically on the record, if you

remember, you said, “You can walk right out that

82a
door.” What you didn’t say was, “You have the freedom to go home.

You have the freedom to go out

the secured door that you came in even,” you didn’t
say any of that, you just said, “You can walk out that
door.”?
A

That is correct.

MR. BALDWIN:

Okay. No other questions.

THE COURT: All right.

Anything else, State,

on this?
MR. WALKER:

No, Your Honor.

THE COURT: Okay. You may step down. All
right. State, do you have any legal argument you want
to make as to the Motion to Suppress that you did not
make yesterday?
MR. WALKER:

Your Honor, the Defense

has brought up the Aynes case. I reviewed the Aynes
case. I think that if you look at that case, I think if the

83a
Detective, Detective Swain in the Aynes case had
done what our Detectives had done, that that, that
that statement would have been allowed in. I think
that one of the key issues in that was that he was
never told he was free to leave. I’d also note, Your
Honor, that that particular Sheriff’s Department is
actually in a jail so it’s a little bit different situation
than the one we have here. We haven’t heard anything from the Defendant in this case, he didn’t testify, so we’re just kind of speculating as to what he felt
at that time. We have no evidence to that effect.
THE COURT: Well, it’s an objective test, State,
it’s not subjective.
MR. WALKER:

Sure. That being said, we

don’t have any evidence other than what we’ve heard.
THE COURT: Okay.

84a
MR. WALKER:

I don’t think that this was

a custodial interrogation that-- The State’s position
would be that this is not a custodial interrogation that
required Miranda. And I, the Court has already made
its, has already made its thoughts known on the issue
of the language. I was not able to locate anything, I
don’t think the other, that Andy or Mike were able to
locate anything extra that needed to be done. I think
the statement should come in, Your Honor. Thank
you.
THE COURT: Is there anything you want to say,
Mr. Baldwin?
MR. BALDWIN:

Just very briefly. I, I disa-

gree with the way that, and I know he wasn’t trying
to mischaracterize it, but Detective O’Brien never
said he was free to leave, he said, “You can walk out
that door,” and I think that matters. He didn’t say he

85a
was free to leave. There are those cases that we cited
that say just because somebody, even if he did say
that, that is just a factor, that doesn’t mean that a
person, a reasonable person would believe that he was
free to leave. That’s all. Thank you.
THE COURT: Well, I did. I tried to do some research on this issue last night myself. I couldn’t really
find anything that talked about the immigration issue
as far as cultural differences, someone not originally
from America understanding the language. Because
there’s a difference between understanding English
and understanding the cultural text of words and
that’s what concerns me in this situation is when you
have someone from another country, particularly a
country that doesn’t share the rule of law that we
have here and we’re not, you know, we all know Mexico is not exactly the most Democratic society and rule

86a
of law society. We know that police are, can be corrupt
in Mexico. And so, my concern in this situation was
would someone from the country of Mexico understand that this is not Mexico in the sense of a police
setting as it is in Mexico where I can walk out the door
without being shot or beat or whatever. And that’s,
but I couldn’t find anything on that issue, but that
was a concern of mine last night when I thought about
this issue. ‘Cause words do have different contexts,
depending on you understanding the culture. I looked
at the McIntosh case, I looked at the Aynes case, I
looked at some other cases. You know McIntosh, you
know, they all basically say the same thing as far as
the overall view of a Miranda issue. You know, McIntosh has determined that if someone is in custody for
purposes of Miranda the Court of Appeals applies an
objective test concerning if a reasonable person under

87a
the same circumstances would believe themselves to
be under arrest or not free to resist the police. And of
course that’s McIntosh, 829 NE2d 531, Court of Appeals 2005. Of course you’re not in custody obviously
you don’t have Miranda issues. That’s what the McIntosh case basically holds. And it says, “To determine
if someone is in custody we apply an objective
test….would believe themselves to be under arrest or
not free to resist.” That’s what McIntosh stands for,
but they don’t talk about the factors you can consider
and I believe that you yesterday, Mr. Baldwin, cited
some factors in the case of-- Well, I found one. Gauvin,
I think it’s Gauvin, G-A-U-V-I-N, vs State of Indiana,
878 NE2d 515 Court of Appeals 2007. And it talks
about some factors that were cited and if you go to
page, let’s see, it’s hard to read these when they’re like
this, what the page is, Your Honor.

88a
MR. KYLE:

What was that cite, Your Honor?

I apologize.
THE COURT: Huh?
MR. KYLE:

What was that cite?

THE COURT: It was 878 NE2d 515. believe this
case was cited by one of the other cases, either McIntosh or—You know, I always go into case cite and say,
I always look at these things, so I think this case was
cited by one of the others but I didn’t print it out, so
I’m not quite sure how this case was cited, but it talks
about factors. It says, “Courts have identified the following factors to be significant to determine whether
a person is in custody: Whether and to what extent
the person has been made aware that he is free to refrain from answering questions. Whether there has
been prolonged, coercive and accusatory questioning.
Whether police have employed subterfuge in order to

89a
induce self-incrimination. The degree of police control
over the environment in which the interrogation
takes place.” And in particular, “Whether the suspect’s freedom of movement is physically restrained
or otherwise significantly curtailed. And, whether the
suspect could reasonably believe that he has the right
to interrupt the questioning and leave the scene.”
That’s where this case gets fact specific. You know,
the situation in this case, one of the things I did note
that was different than what was testified to is that
the door to the interview room was closed. It was clear
on the video that the door was closed to the interview
room. This is a police setting, this is a secure facility.
Yes, he voluntarily went there. But he had to be
buzzed into the area or taken into the area of a secure
room, the door is shut. Detective O’Brien’s present.
He is told, “You can walk out the door,” but again, this

90a
is where we get into words. This is what concerns me.
It’s one thing to say, “I can walk out the door.” I think
most of us here in America that are from here get the
context that I’m free to leave. But someone who is not
originally from here, this is what caused me concern
is that you’ve got to be very specific they understand
that it means basically you’re free to leave. That’s
where I was really tossing with this issue last night.
You know, I don’t believe the officers in this case did
anything inappropriate as far as ill will, but the issue
is objective testing. Would a reasonable person under
the circumstances believe they are free to go? And
what also causes me concern here is when the second
officer comes into the room and shuts the door and introduces himself, again, would a reasonable person in
this situation, without being told that “You’re free to
leave,” feel free to leave, and especially when the

91a
questioning becomes very focused. And that’s what
one of the case law cases talks about is basically one
of the factors to consider is has the police, have the
police focused their investigation solely on this person
and communicated that fact to the Defendant. It’s not
just what you in your heart as an officer know that
you’re focused on this person, but you have in fact
have communicated that fact to the Defendant.
There’s no doubt in this situation that the Defendant
was told that basically, “We believe you did it. We
know you did it. We’ve got proof you did it,” you know,
“She took a lie detector test. She passed it,” you know,
“Why would she tell us this?”. I mean, it’s clearly the
police communicated to the Defendant that he was
the focus of the investigation. And so again, I’m tossing all this around in my mind, is this enough at this
point, given a series of factors, to consider someone in

92a
custody for purposes of Miranda? And I just really, I
really tossed and turned on this last night. But I believe words matter and I believe when the State, and
again it is the State’s burden, I believe the State has
to be very clear with language, that you have to be
very specific to someone that they are free to leave the
building at any time. I believe those words are important and I believe they need, especially to be communicated by multiple officers. If the State is going to
use multiple officers to interrogate someone it has to
be clear that just because the second officer goes into
the room or a third or a fourth, that the situation
hasn’t changed. But when you have a Defendant who
is not originally from this country, who is in a room
with shut door with two (2) officers present, I believe
at this point a reasonable person would not believe

93a
they are free to leave. And therefore, I believe Miranda was required. That’s where I’ve come down on
this. Like I say, it’s a factual call. It’s not a, you
know, it’s not a black and white issue. I have to go
with what I believe to be right. So therefore, I’m going
to grant the Defense Motion to Suppress the statement as a violation of Miranda.
MR. WALKER:

Your Honor—

THE COURT: However—
MR. WALKER:

Go ahead.

THE COURT: The State will be allowed to use it
for impeachment purposes because I do not believe
that this was involuntary by the Defendant. I don’t
believe there is any basis not to allow the State to use
it if the Defendant testifies for impeachment purposes. Okay?

94a
MR. WALKER:

Your Honor, the State, this

evidence, and I appreciate the thought that you put
into this, this evidence is very important to the State’s
case and so I’m going to have to ask for an Interlocutory Appeal.
THE COURT: Well, the statute, the statutory for
a State Appeal, State, is not Constitutional and statutory and unless the State can state that it cannot
proceed without the confession then the State has no
basis to appeal.
MR. WALKER:

The State cannot proceed

without the confession. The State cannot proceed
without those statements. I can tell you flat out that
the statement would almost not--

95a
STATE OF INDIANA

)
)
COUNTY OF JACKSON)

IN THE JACKSON
CIRCUIT COURT
ANNUAL TERM
2018

STATE OF INDIANA
V.
ERNESTO B. RUIZ

CAUSE NO.
36C01-1510-F4-25

ORDER STAYING PROCEEDINGS
The State of Indiana, by its Deputy Prosecuting
Attorney, Joshua K. Scherschel, filed its Motion to
Stay Proceedings.
Being duly advised, this Court hereby grants said
Motion Stays the proceedings in this case, pending
resolution of the Petition for writ of certiorari to the
Supreme Court of the United States.
The State is under a continuing obligation to inform this court and opposing counsel of any changes
in status of the Petition.
SO ORDERED this 8th day of January, 2020.

96a

Distribution:
Joshua K Scherschel
State of Indiana
Mark Kamisch
Attorney for the Defendant

